audit report



Return to the USDOJ/OIG Home Page



Use of Equitable Sharing Revenues by the Texas Department of Public Safety
GR-80-99-016
June 2, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The United States Department of Justice, Office of the Inspector General has completed an audit of the use of equitable sharing revenues by the Texas Department of Public Safety (Texas DPS).  Equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in the course of certain criminal investigations.

	We determined that Texas DPS generally complied with Department of Justice guidelines.  However, we found that:

Equitable sharing revenues totaling $100,909 were expended for non-law enforcement purposes.

	Six equitable sharing checks totaling $1,194 were not deposited for 7 to 10 months after they were received by Texas DPS.

	On its FY 1998 Federal Annual Certification Report, Texas DPS understated equitable sharing property receipts by $3,134 and overstated currency receipts by $3,134.

The audit results are discussed in the Findings and Recommendations section of this report.  Our audit Scope and Methodology appear in Appendix I.